                  United States Department of Justice
                                     United States Attorney Joseph P. Russoniello
                                                   Northern District of California
                                                                                                                                                               11th Floor, Federal Building
                                                                                                                                                       450 Golden Gate Avenue, Box 36055
                                                                                                                                                            San Francisco, California 94102
                                                                                                                                                                            (415) 436-7200
                                                                                                                                                                      FAX: (415) 436-7234


FOR IMMEDIATE RELEASE                                                                                                                              CONTACT: Joshua Eaton
JANUARY 9, 2008                                                                                                                                             (415) 436-6958
WWW.USDOJ.GOV/USAO/CAN                                                                                                                               Josh.Eaton@usdoj.gov
                                       FORMER TICKE T AGENT I ND IC TED FOR EMBEZZL ING APPRO XIM ATEL Y $180,000 FROM AMTR AK FROM 2002 TO 2004




SAN FRANCISCO – United States Attorney Joseph P. Russoniello announced that Lawrence E.
Crayton III of Oakland, California made his initial appearance in federal district court in San
Francisco on January 9, 2008 before United States District Judge Maxine M. Chesney. A federal
grand jury in San Francisco had previously indicted Mr. Crayton on Theft Concerning Programs
Receiving Federal Funds on December 18, 2007. Mr. Crayton is scheduled for his next
appearance in federal court in San Francisco on February 13, 2008 before Judge Chesney.

According to the indictment, Mr. Crayton, 58, was a ticket agent and employee of Amtrak, an
organization which received federal benefits in excess of $10,000 for each calender year from
2002 to 2004. The indictment further alleges that Mr. Crayton embezzled approximately
$180,000 from 2002 to 2004.

The maximum statutory penalty for each count of Theft Concerning Programs Receiving Federal
Funds, in violation of 18 U.S.C. § 666 is 10 years in prison, and a fine of $250,000, plus
restitution if appropriate. However, any sentence following conviction would be imposed by the
court after consideration of the U.S. Sentencing Guidelines and the federal statute governing the
imposition of a sentence, 18 U.S.C. § 3553.

Christina Hua is the Assistant U.S. Attorney who is prosecuting the case with the assistance of
Ana Guerra and Wilson Wong. The prosecution is the result of a three year investigation by the
Amtrak Office of Inspector General.



Further Information:

Case #:CR 07-0803-MMC
A copy of this press release may be found on the U.S. Attorney’s Office’s website at
www.usdoj.gov/usao/can.

Electronic court filings and further procedural and docket information are available at
https://ecf.cand.uscourts.gov/cgi-bin/login.pl.

Judges’ calendars with schedules for upcoming court hearings can be viewed on the court’s
website at www.cand.uscourts.gov.

All press inquiries to the U.S. Attorney’s Office should be directed to Joshua Eaton at (415) 436-
6958 or by email at Josh.Eaton@usdoj.gov.


                                               ###
